Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the City of La Mirada California
GR-90-00-015June 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the City of La Mirada (CLM).  The purpose of the grants is to enhance community policing.  The CLM was awarded a total of $229,148 to hire two sworn officers and redeploy the equivalent of two existing full-time officers from administrative duties to community policing.

We reviewed the CLM's compliance with eight essential grant conditions.  We found the grantee's practices for budgeting, hiring, local matching, retention, community policing, and officer redeployment to be acceptable.  However, we found weaknesses in areas of reimbursement requests and grant reporting, as identified below.  As a result, we question $9,870. 1

The CLM claimed unallowable administrative overhead costs of $3,068 (federal share) on the FAST grant and $2,051 (federal share) on the UHP grant.

	The CLM claimed unallowable civilian overtime expenditures of $4,751 (federal share) on the MORE 95 grant.

	Several status reports were not accurate, timely, or submitted.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I. 




The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.